<html>
<title> - THE DANGERS OF REPORTING ON HUMAN RIGHTS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                THE DANGERS OF REPORTING ON HUMAN RIGHTS

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 16, 2019

                               __________

                           Serial No. 116-39

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 

                    or http://http://www.govinfo.gov
                    
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-331PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
                   
                    
                    
                    
                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman

BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey		     CHRISTOPHER H. SMITH, New Jersey     
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida	     JOE WILSON, South Carolina
KAREN BASS, California		     SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts	     TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island	     ADAM KINZINGER, Illinois
AMI BERA, California		     LEE ZELDIN, New York
JOAQUIN CASTRO, Texas		     JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada		     ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California		     FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania	     BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLPS, Minnesota	             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota		     KEN BUCK, Colorado
COLIN ALLRED, Texas		     RON WRIGHT, Texas
ANDY LEVIN, Michigan		     GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia	     TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey	     STEVE WATKINS, Kansas
DAVID TRONE, Maryland		     MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas  

                    Jason Steinbaum, Staff Director
               Brandon Shields, Republican Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

                     KAREN BASS, California, Chair

SUSAN WILD, Pennsylvania             CHRISTOPHER SMITH, New Jersey, 
DEAN PHILLIPS, Minnesota                 Ranking Member
ILHAN OMAR, Minnesota                JIM SENSENBRENNER, Wisconsin
CHRISSY HOULAHAN, Pennsylvania       RON WRIGHT, Texas
                                     TIM BURCHETT, Tennessee

                    Janette Yarwood,  Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

            STATEMENT FOR THE RECORD FROM COMMITTEE MEMBERS

Prepared statement submitted for the record from Chair Bass......     3

                               WITNESSES

Simon, Joel, Executive Director, Committee to Protect Journalists    14
Repucci, Sarah, Senior Director, Research and Analysis, Freedom 
  House..........................................................    39
Hoja, Gulchehra, Uyghur Service Broadcaster, Radio Free Asia.....    48
Cengiz, Hatice, Fiance of Jamal Khashoggi........................    53

                  INFORMATION SUBMITTED FOR THE RECORD

Article: Mail & Guardian: Parents of slain journalist demand 
  justice from South Sedan submitted from Representative Houlahan    66
Article: Washington Post: CIA concludes Saudi crown prince 
  ordered Jamal Khashoggi's assassination submitted for the 
  record from Representative Smith...............................    75
Article: Washington Post: Seizing journalists' records: An 
  outrage that Obama 'normalized' for Trump submitted for the 
  record from Representative Smith...............................    81
Written submission for the record submitted from Representative 
  McCaul.........................................................    88

                                APPENDIX

Hearing Notice...................................................    91
Hearing Minutes..................................................    92
Hearing Attendance...............................................    93

              ADDITONAL MATERIALS SUBMITTED FOR THE RECORD

Article: The Atlantic: What It's Like to Report on Rights Abuses 
  Against Your Own Family submitted for the record from Chair 
  Bass...........................................................    94

 
                THE DANGERS OF REPORTING ON HUMAN RIGHTS

                         Thursday, May 16, 2019

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

                 Global Human Rights, and International

                             Organizations,

                     Committee on Foreign Affairs,

                                     Washington, DC

    The subcommittee met, pursuant to notice, at 2:06 p.m., in 
room 2172 Rayburn House Office Building, Hon. Karen Bass 
(chairman of the subcommittee) presiding.
    Ms. Bass. Good afternoon, everyone. This hearing for the 
Subcommittee for Africa, Global Health, Global Human Rights, 
and International Organizations will come to order. I note that 
a quorum is present.
    The subcommittee is meeting today to hear testimony on the 
dangers of reporting on human rights. Today, we are here to 
highlight the dangers, the atrocities against journalists, 
press freedom, and to consider the various ways the 
international community can work to protect journalists. The 
seriousness of the threat to press freedom and global freedom, 
writ large, requires the United States to expand its alliances 
with fellow democracies and deepen its own commitment to 
democratic shared values. The world's democratic nations must 
show a united front and defend democracy as an international 
right in order to decrease the current authoritarian and anti-
liberal trends across many places in the world.
    So, without objection, all members may have 5 days to 
submit statements, questions, extraneous materials for the 
record, subject to the length limitation in the rules. I 
recognize myself for the purpose of making an opening 
statement.
    I would like to start out by thanking our distinguished 
witnesses who are here with us today. I would also like to 
especially thank Hatice Cengiz and Ms. Hoja who will be 
speaking about their personal experiences. It is becoming 
increasingly harder for journalists to do their jobs, educating 
the public about issues and events that affect citizens' 
everyday lives and enabling citizens to hold their governments 
accountable. The press is constantly threatened by 
authoritarian governments and their security forces, judges who 
enforce harsh punishment, violent extremist groups, media 
companies that want to control the narrative, and online trolls 
who make threats via the internet.
    The Committee to Protect Journalists notes that the number 
of journalists killed on the job as reprisal murders for their 
work nearly doubled in 2018 from just a year earlier. CPJ also 
noted that the jailing of journalists also hit a high. The 
World Press Freedom Index compiled by Reporters Without Borders 
shows that the number of countries regarded as safe where 
journalists can work in complete security continues to decline. 
Amnesty International regularly highlights countries are 
specific journalists who are harassed, threatened, detained, 
held without charge, are given extreme sentences for reporting 
on human rights.
    Human Rights Watch has highlighted Uganda's attempts to gag 
the media, Tunisian bloggers held for criticizing officials, 
the many journalists in Myanmar who face charges, Burundi's 
crackdown on media freedom including suspending the Voice of 
America and BBC operating licenses, the Digital Security Act 
passed in Bangladesh that strikes a blow to freedom of speech 
in that country, and many other instances of the increasing 
global crackdown on journalists. The difficult situation in 
Hungary where the government now controls 90 percent of the 
media outlets in the country. According to the Committee to 
Protect Journalists, during the 10-year period between 1909 and 
1918, there were a total of 602 journalists killed because of 
retaliation, exposure to combat, exposure to other dangerous 
assignments. In general, nondemocratic governments are 
traditionally more likely to engage in censorship, legal 
restrictions, or other actions that restrict media freedom.
    But there has been a shift across the world. Challenges to 
journalism and press freedoms may be contributing to global 
stagnation or declines in democracy generally over the past 
decade. Whether it is an attack on the Capital Gazette newsroom 
in Annapolis, Maryland that killed five journalists, the rape 
and murder of Bulgarian journalist Victoria Marinova, or the 
human rights atrocity that happened to Mr. Khashoggi in Turkey, 
journalists are being violently attacked for doing their jobs.
    The rise of digital authoritarianism is another way for 
governments to control their citizens and use the term ``fake 
news'' to suppress those who oppose them, helping to discredit 
the internet and other media platforms. Right here in the U.S., 
the leadership, the administration continues to mock the press, 
often rejecting the news media's role, calling it fake news 
hoping to discredit our own press. This is unacceptable of a 
leading global democracy and goes against the fundamental 
principles of press freedom and gives license to political 
leaders who silence the media as part of their larger 
authoritarian agenda.
    My colleagues and I here in Congress believe in a diverse 
media and protecting journalists' ability to do their jobs 
without the fear of physical violence or repression. 
Fortunately, for the United States, we have strong institutions 
including robust constitutional guarantees of freedom of the 
press and speech and healthy legislative and judicial systems 
that check executive power, or I should say try to check 
executive power, but we know that this is not the case around 
the world. The numerous attacks on journalists around the world 
are jarring and it is clear there is profound global crisis of 
press freedom.
    There also seems to be a lack of international leadership 
on journalists' rights and safety. I look forward to hearing 
what you all think we should do to combat the violence against 
journalists and ensuring the continued strength of our press 
freedoms. I now recognize the ranking member for the purpose of 
making an opening statement.
    [The prepared statement of Chair Bass follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Smith. Thank you very much, Madam Chair. It is a 
delight to welcome these unbelievably effective witnesses, 
those who have borne a terrible price for either in the case of 
one individual, Jamal Khashoggi, a terrible, terrible murder by 
the Saudi Arabians, and of course others from Radio Free Asia 
who is here to testify.
    I do want to thank you for this hearing. It is part of an 
ongoing effort that we are all making to say that a free, 
unfettered press is extraordinarily important. And 
unfortunately, the freedom of the media worldwide is under 
siege particularly at the totalitarian countries. Human rights 
reporters in particular are dealing with core civil and 
political rights, the right to a fair trial, the right to 
freely assemble or to practice religion, and the right to the 
most fundamental of all human rights, the right to life.
    Freedom of speech is doubly implicated when journalists are 
targeted by a repressive government. Not only are the voices of 
journalists silenced, but also the voices of the victims of 
civil rights abuses for whom journalists allowed to have their 
stories told, and their sources as well who are often tracked 
down and abused.
    Take the example of one of our witnesses, Gulchehra Hoja, 
from Radio Free Asia. I had the privilege of inviting her to 
testify at a hearing last year before the congressional-
Executive Commission on China for her work on reporting on the 
repression of the Uyghurs by the Chinese Government in the 
Xinjiang Uyghur Autonomous Region. As a direct result of her 
brave reporting, more than two dozen of her relatives were 
placed in so-called ``reeducation camps,'' concentration camps. 
In other words, she both reports the news and becomes the news 
insofar, as her family has been victimized on account of her 
fulfilling her professional duties.
    When we put the face of a victim on an issue and we hear 
what they have endured or their families, it becomes 
personalized and it makes it even more compelling and more 
understandable to everyone, including Members of Congress. So 
thank you for sharing that story. I would point out that 
another person who worked for Radio Free Europe is Khadija, who 
I actually met with in Baku some years ago, got seven and a 
half years by the Government of Azerbaijan for reporting on the 
kleptocracy of the president of that country, Aliyev.
    And so I did convene a hearing. We heard from a number of 
important people in the journalist world including Radio Free 
Europe's leader, head director, and made an appeal to Aliyev to 
let her go. She reported on corruption. She had every right to 
do so, and yet she was serving a seven and a half year 
sentence, and she was working as a stringer for us, the U.S. 
Government. I introduced a bill, the Azerbaijan Democracy bill, 
an act, and really began saying Aliyev needs to release all of 
his political prisoners and that includes members of the press. 
He did release them. He released her.
    But again, the message had been sent and I think it still 
remains and has a chilling effect that lasts for a very, very 
long time that if you cross swords with a dictator, you will 
pay a very, very severe price. So self-censorship becomes a 
very real issue as well and I am sure our distinguished 
witnesses can speak to that.
    Hatice, thank you for the time that we spent together 
yesterday. Both my staff and I were greatly moved by your love 
for your fiance<greek-e>d the lack of accountability on the 
part of those people who murdered him. It seems to me that 
coming now again in Washington should keep that the issue is 
not just alive in terms of the accountability, but there are 
people within the Saudi Arabian Government that need to be held 
to accountable. And I for one believe that Magnitsky sanctions 
need to be meted out against those individuals and I am sure we 
have very good actionable information on them for their role in 
this terrible atrocity.
    And then sometimes we go from the horrific murder or 
incarceration of journalists to things that are like 
ridiculous. For example, in China we know the children's 
character Winnie-the-Pooh is now subject to Chinese censorship 
because Winnie-the-Pooh--and members might have seen in the 
Guardian, Winnie-the-Pooh and a picture of Xi Jinping was run. 
And the Guardian newspaper starts off by saying, ``Who is 
afraid of Winnie-the-Pooh? The Chinese Government, 
apparently.'' It shows you how the skin-deep and how easily 
offended, and then of course there is retaliation against real 
people, not characters from the Disney folks, that occur. I 
mean, it is just the tip of the iceberg of just how extreme.
    I held hearings in this committee years ago when Google, 
Microsoft, Cisco, and Yahoo were enabling the dictatorship to 
censor just about everything on the internet, and still do, 
sadly. But then it was Google's complicity in that, that I and 
others found to be appalling.
    Yesterday, we heard from Hong Kong democracy activists at a 
hearing of the China Commission, and one of them pointed out 
because they talked about the chilling effect that the new 
extradition amendments might have and basically what the lack 
of press freedom in Hong Kong is having on journalists, 
particularly in the area of self-censorship, not only are 
people in mainland China, and as you pointed out, Mr. Simon, 
you know, after Turkey, China is second in terms of 
incarcerated journalists. And it is probably an under-count, 
because it is such a secret society, we do not know how many 
are being held fully, particularly bloggers.
    So you have a situation where the Apple Daily, which is one 
of the Chinese language newspapers, it is one of the biggest 
for years, has literally shrunk in size, because not only are 
they chilled from carrying certain articles, the Chinese 
Government goes to their advertisers because Hong Kong still 
has some freedoms, and tells them, ``You do not put your 
advertisements into that newspaper.'' So they go after them in 
every which way including economically.
    Elsewhere, Erdogan is waging a war on journalists, and 
again Joel Simon will talk about the fact that they are the 
single largest jailer of journalists in the world and that is 
appalling. It is not, I mean when you compare that in 
population to China, it is just, it is an outrage and hopefully 
you will speak further to that later on.
    Again, I want to thank you for your testimoneys in advance 
and thank you for bearing witness to a very ugly truth about 
the censorship, the incarceration, the intimidation of those 
men and women who are journalists who are trying to bring truth 
to light. Yield back.
    Ms. Bass. Thank you, Mr. Smith.
    I now want to introduce the panel. And before I do, let me 
say that I believe you all have written testimony that you have 
given and that we would ask that you summarize your testimony. 
I am going to hold everyone to the 5-minute rule. You will know 
though that there will be an opportunity to speak again. We 
will have another round. But I at least want to go through with 
everybody sticking to 5 minutes and I would apply that to 
witnesses as well as myself and my colleagues here on the dais.
    Our first witness, Joel Simon, has been Executive Director 
of the Committee to Protect Journalists since 2006. Simon has 
led the organization through a period of expansion, growing 
CPJ's network of global correspondence, creating a new North 
America program focused on press freedom in the United States, 
and helping to develop an emergency response team focused on 
safety and direct assistance to journalists in crisis around 
the world.
    Sarah Repucci is Freedom House's Senior Director of 
Research and Analysis. In this capacity she leads the team 
producing Freedom House's flagship research and analysis 
reports, including Freedom in the World, Freedom on the Net, 
and the latest project, Freedom in the Media. She has 20 years' 
experience in research in the area of democracy, human rights, 
and good governance.
    Hatice Cengiz is a PhD candidate living in Istanbul, Turkey 
and the fiance of Jamal Khashoggi. Since his disappearance and 
death last October, she has been a steadfast voice in the call 
for justice for Khashoggi. We thank you very much for your 
willingness to share your story.
    Gulchehra Hoja is a broadcaster with Radio Free Asia's 
Uyghur Service where she has worked since 2001. Prior to that 
Ms. Hoja was a successful TV personality and journalist in 
China's Uyghur Region with Chinese State media. But after 
hearing RFA's Uyghur Service news broadcast, she decided to 
leave China and join the U.S.'s effort to provide the Uyghur 
people with trustworthy, uncensored journalism. Again, thank 
you so much for your participation today.
    And you may begin, Mr. Simon.

   STATEMENT OF JOEL SIMON, EXECUTIVE DIRECTOR, COMMITTEE TO 
                      PROTECT JOURNALISTS

    Mr. Simon. Well, I thank you, Chair Bass. Thank you, 
Ranking Member Smith and other distinguished members of the 
subcommittee. Thank you for inviting the Committee to Protect 
Journalists to testify. As executive director for an 
organization that advocates globally for press freedom and as a 
former reporter in Mexico and Central America where I saw 
firsthand the violence encountered by local journalists who 
cover human rights, I commend you for holding this hearing.
    Press freedom is among the most fundamental of human 
rights. It is essential to democracy, accountability, and 
global security. The U.S. plays a vital role in ensuring that 
this right is protected. Governments around the world seek to 
censor human rights coverage by criminalizing journalism. This 
is how Myanmar retaliated against Reuters reporters Wa Lone and 
Kyaw Soe Oo, who were jailed for over 500 days after reporting 
on a massacre of the Rohingya Muslim minority in that country. 
Their pardon, though welcomed, does not undo the terrible 
injustice committed against them.
    At the close of 2018, CPJ recorded at least 250 journalists 
behind bars. Of these, 151 had reported on human rights issues. 
In 70 percent of all of these cases, the journalists were 
jailed on anti-State charges including accusations of 
terrorism. Turkey, Egypt, and China all had high numbers of 
journalists in prison for reporting on human rights. And I want 
to make one point about China, which is that half of all the 
journalists jailed in China according to CPJ data were Uyghur 
journalists which gives an indication of the extent of that 
crackdown.
    And what is also alarming is that the number held around 
the world on false news charges, that was 28 globally compared 
to 9 in 2016. It is disconcerting to see that governments, most 
recently Russia and Singapore, justify repression by claiming 
they are cracking down on fake news. Denouncing critical 
journalists as fake news can also spur online attacks and 
inflame public opinion, making it easier for repressive 
governments to justify legal action. Filipino journalist Maria 
Ressa of Rappler is facing a slew of legal cases over that 
publication's investigation into abuses by the government of 
Rodrigo Duterte.
    The ultimate form of censorship is of course murder. Of the 
54 journalists killed for their work in 2018, 13 reported on 
human rights and 8 of those were targeted for murder. Since 
1992, CPJ has documented at least 1,340 journalists killed in 
retaliation for their work; at least 285 of those covered human 
rights. This brutal method of silencing critics was seen last 
year with the murder of Washington Post columnist Jamal 
Khashoggi. He was killed by Saudi officials dispatched from 
Riyadh for that purpose. I commend the committee for making 
Khashoggi's case a focus of today's hearing and I also urge 
that you consider the role played by technology.
    A digital rights group reported that Pegasus, an advanced 
cyber weapon sold by the Israeli spyware company NSO Group, 
likely allowed the Saudi Government to listen to calls between 
Khashoggi and a Saudi dissident. Khashoggi's killing was an 
abominable crime that has thus far gone unpunished. CPJ has 
found that in nine out of ten cases of murdered journalists, 
the killers are never brought to justice. This impunity sends 
an empowering message to those seeking to use violence to 
censor journalists.
    The U.S. record on press freedom is not perfect, but has 
long been a leader in ensuring robust protections both at home 
and abroad. Unfortunately, the current administration has not 
been a forceful advocate for press freedom. To the contrary, 
President Donald Trump has sought to delegitimize the work of 
news organizations, has failed to criticize repressive regimes, 
and has praised leaders who crush dissent. To counter this, 
Congress must step up its efforts. We applaud past action and 
call on Congress to ensure that the State Department applies 
pressure on foreign governments to release imprisoned 
journalists, ensure justice in murders, and reform laws or 
practices that infringe on press freedom. It is vital that 
Congress speak out when these rights are violated.
    Finally, as the author of a book on hostage policy, I have 
a special interest in the fate of American journalists taken 
hostage overseas. Congress should insist that the 
administration do all it can to ensure the safe recovery of 
Austin Tice who was detained in Syria in 2012. Congress should 
also insist that the two men detained in Syria who are 
suspected of murdering journalist James Foley and Steven 
Sotloff and the U.S. humanitarian worker Peter Kassig are 
brought to justice to stand trial in a U.S. civilian court. 
Thank you so much and I welcome your questions.
    [The prepared statement of Mr. Simon follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Bass. Ms. Repucci.

   STATEMENT OF SARAH REPUCCI, SENIOR DIRECTOR, RESEARCH AND 
                    ANALYSIS, FREEDOM HOUSE

    Ms. Repucci. Chairman Bass, Ranking Member Smith, and 
members of the subcommittee, it is an honor to testify before 
you today. I ask that my full written statement be submitted 
for the record.
    Ms. Bass. Can you speak just a little louder?
    Ms. Repucci. Yes. The fundamental right to seek and 
disseminate information through an independent press is under 
threat. According to Freedom House's Freedom in the World data, 
freedom of the press has been deteriorating around the world 
over the past decade. The trend is linked to the global decline 
of democracy itself, which Freedom House has been tracking for 
the past 13 years.
    I have four main points today. These points will also be 
elaborated in our forthcoming new report, Freedom in the Media, 
which will be released the first week of June. First, media in 
the world's least free societies have faced an intensification 
of traditional challenges. Over the past 5 years, countries 
that were already designated as not free in Freedom in the 
World were also those most likely to suffer a decline in their 
press freedom scores. Their methods are more of what we have 
seen for years, draconian laws, media shutdowns, arrests, and 
violence. It is striking that these governments continue to 
feel threatened despite already having near total control over 
the political system and flow of information.
    Also, among the 209 countries and territories that we 
cover, we have identified the use of violence against 
journalists or media professionals in almost half of them over 
the past 5 years. Second, in some of the most influential 
democracies, large segments of the population are no longer 
receiving independent news and information. The decline in 
press freedom in democracies has risen in tandem with right-
wing populism which has undermined basic freedoms, particularly 
in Hungary, Serbia, and India. It has become painfully apparent 
that a free press can never be taken for granted even when 
democratic rule has been in place for decades.
    Third, as democracies retreat from holding press freedom up 
as a gold standard, China is filling the gap with a new 
authoritarian information model. Chinese authorities influence 
news media content around the world through three primary 
strategies. First, the Communist Party narratives are embedded 
in foreign media by proxies and allied figures including 
diplomats and foreign media owners. Second, the CCP and its 
agents and proxies work to suppress critical coverage of China 
abroad through diplomatic pressure and co-opting media owners 
and advertisers. And, finally, through firms such as StarTimes 
and the WeChat platform, the Chinese Government has new avenues 
for influence abroad. These moves are escalations in the 
aggressiveness with which Chinese officials attempt to 
undermine the watchdog role played by independent media in 
democratic settings.
    And my final point is that the erosion of press freedom is 
both a symptom of and a contributor to the breakdown of other 
democratic institutions and principles. While the threats to 
global media freedom are real and concerning in their own 
right, their impact on the State of democracy is what makes 
them truly dangerous. Without a free and independent media 
sector, citizens cannot make informed decisions about how they 
are ruled and abuse of power cannot be exposed and corrected. 
If the United States imposes no consequences for restrictions 
on media, free press could be in danger of virtual extinction. 
With this in mind, we make the following recommendations:
    Please ensure that actions by U.S. officials do not excuse 
or inspire violations of press freedom. Take strong and 
immediate action against any violations of media freedom 
globally through press statements, phone calls, meetings, 
letters, and the imposition of targeted sanctions on 
perpetrators. Stand up publicly for the values of a free press 
and support civic education that will educate the next 
generation. Ensure U.S. foreign policy and assistance 
prioritizes support for democratic principles including media 
freedom. It is fundamental to national security and economic 
prosperity. Support social media as an alternative outlet for 
free expression in repressive environments. And pass 
legislation aimed at enhancing the publicly available 
information about Chinese media influence activities.
    While press freedom is under threat around the world, 
experience has shown that it can rebound from even lengthy 
stints of repression when given the opportunity. The basic 
desire for democratic liberties including access to honest and 
fact-based journalism can never be extinguished and it is never 
too late to renew the demand that these rights be granted in 
full. Thank you. I look forward to your questions.
    [The prepared statement of Ms. Repucci follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Bass. Ms. Cengiz? Yes?
    The Interpreter. I will be interpreting for Ms. Cengiz.
    Ms. Bass. Yes.
    The Interpreter. She was wondering if she could go over 5 
minutes or is she limited to 5 minutes for the----
    Ms. Bass. You know what, let me go to Ms. Hoja and come 
back, OK?

STATEMENT OF GULCHEHRA HOJA, UYGHUR SERVICE BROADCASTER, RADIO 
                           FREE ASIA

    Ms. Hoja. May I begin?
    Thank you for having me at this hearing. I am not going to 
read my full statement today, but I will provide a short 
summary. I am very proud to be here to represent Radio Free 
Asia which was created to provide local and other news to the 
people living in closed countries. Their access to reliable 
journalism is restricted and censored for millions of listeners 
in Asia.
    RFA often serves as a lifeline to the truth. As a 
broadcaster with RFA Uyghur Service, the only independent 
Uyghur language news service outside China, exposing the truth 
can come at severe cost. Not just for me and my colleagues, but 
especially for our families in China. Even our sources are not 
spared. Because of our work as journalists, China views RFA as 
a hostile foreign news network. This perhaps has never been 
truer than now when RFA has been at the forefront of covering 
unimaginable humanitarian crises in China Uyghur Region.
    The Chinese authorities have detained more than one million 
Uyghurs as well as other ethnic Muslims, putting them in 
prison-like facilities while implementing a vast high-tech 
surveillance state to monitor and intimidate the remaining 
population. Throughout this development, my colleagues and I at 
RFA Uyghur Service have worked tirelessly to report on events 
as they occur in our former homeland. This includes breaking 
the news of mass detention of Uyghurs at the very beginning of 
China notorious re-education camps in the spring of 2017, first 
interviewing the camp security guards and officials who 
describe the harsh treatment and the conditions.
    RFA first uncovered the construction crematoriums near the 
facilities and RFA first reported on the overflow of 
kindergartens and the orphanages of Uyghur children whose 
parents were detained. China attempt to suppress the stories 
start from the very beginning. We cannot ever visit our 
homeland again. China would never allow us to get journalism 
visas. Instead, we are forced to reach our sources using other 
means including phone calls, but even that is becoming very 
difficult because authorities monitor calls and they use AI 
technology and voice recognition software to cut us off from 
reaching sources. Even sources outside China face threats to 
their families and the loved ones still in the country. This 
makes it harder to get leads and to confirm developments.
    As is well known, Chinese authorities have even resorted to 
threatening my colleagues at Radio Free Asia, even though we 
are based in United States and most of us are U.S. citizens. 
They do this by targeting our China-based relatives. I am among 
six journalists with RFA's Uyghur Service whose family members 
have been jailed, detained, or disappeared because of our work. 
The sad thing is we cannot be sure about our families' well-
being or their fate. Attempts at contacting them carries 
serious risks.
    I know and my colleagues know that our work is important. 
After we began reporting on this human rights crisis in the 
Uyghur homeland, journalists in Western media have investigated 
and confirmed many details that were first reported by RFA. 
Knowing that so many of our peers turn to RFA as trusted source 
is very encouraging, but the cruel irony does not escape my 
colleagues and me. Though we have journalistic understanding 
about so many events happening in the Uyghur Region, we are 
often the last to know if our mothers, our fathers, our 
brothers, our sisters, and our children are in prison or not, 
if they are sentencing or punishment, if they are need of 
health or medical care, if they are still alive. That is the 
fear we live with every day, every hour.
    But there is one greater fear that urges us on: that if 
stop doing our duty as journalists, if we were silent, the 
world would simply forget.
    [The prepared statement of Ms. Hoja follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Bass. Thank you. Thank you very much.
    Ms. Cengiz.
    [The following statement and answers were delivered through 
an interpreter.]

       STATEMENT OF HATICE CENGIZ, FIANCE JAMAL KHASHOGGI

    Ms. Cengiz. I want to thank you, first of all. Believe me, 
it is very hard for me to make this speech here. I am not sure 
how I will be able to voice the tragedy that I have been living 
through for the last 8 months in this short of a time, but I 
would like you to get the general idea if I can.
    When we were talking 7 months ago with Jamal what we would 
do in the United States after we got married, what travel plans 
we would make to be here, as the witness of a very important 
tragedy is actually a trauma for me. Jamal told me that 
Washington was a beautiful city and that we would have a 
beautiful life. And he would tell me about U.S. politics, 
details that I did not know and he wanted to push me on to be 
interested in the United States before I arrived.
    He told me that there were large gardens, museums, shopping 
opportunities. He told me that I would not be bored and that I 
would not be missing Turkey and that I would be very happy in 
the United States. When he came to Turkey for us to get 
married, we quickly got busy planning our marriage. We were 
buying furniture. As you know sometimes women have these, I was 
planning my dowry. I was very excited and I was happier to be 
alive than I had ever been in my life.
    As I was heading for such an exciting start, the fact that 
it got suddenly cut on October 2d, I still cannot make human 
sense of it. I still cannot understand. I still feel that I 
will wake up and it will get back to that. And I cannot 
understand that the world still has not done anything about 
this.
    I had time to walk the streets of Washington before I got 
here and if someone had told me 7 months ago that I would come 
here without Jamal but to ask for something about him, ask 
about justice for him, I would not have believed it.
    But now I find myself in front of people that I had seen on 
TV. This is amazing. I am asking for justice and I cannot find 
the words to express my feelings about this.
    There is much that I want to say, but I want to just focus 
on the things that are important. During the first days after 
the event, President Trump had invited me to the White House. 
But in those days, I told the U.S. values, the value system of 
the United States would help solve this and leaving aside the 
emotional side, I thought the politicians would be able to 
help, but then I did not come.
    In the early days, President Trump said that this would be 
solved. Ms. Pelosi talked about how unacceptable this was. But 
seven, 8 months later we see that nothing has been done and 
that is why I am here today. I just want to say that what is 
most important here is within that official mission of the 
embassy on October 2d, it was not just Jamal that was killed. 
It was also what we are talking about here, the values that the 
United States represents. Did they not get murdered as well?
    I think we choose between two things. We all have this on 
our minds that we can either go on acting as if nothing 
happened and we can walk out of here and act as if nothing 
happened, or we can act, we can leave aside all interests, 
international interests and politics, and focus on the values 
for a better life.
    And, finally, for the United States, the values of freedom 
of thought and human rights as the United States is the 
fortress for these values, I think it is more than what the 
Constitution has, but it has the right, it has the opportunity 
to show that this is--it has the chance to show those who are 
responsible for this act. I think it is a test for the United 
States and I believe it is a test that it is true that it can 
pass and that is why I am here today.
    Ms. Bass. Thank you very much.
    Ms. Cengiz. One last thing. I hope that the Congress can 
initiate an international investigation, it can lead an 
international investigation into this act. And I think that 
international interests should not supersede values and being 
allies can also mean that these things, these people, the 
people responsible for this murder can be brought to justice. 
And I believe that President Trump can initiate this as well.
    [The prepared statement of Ms. Cengiz follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Bass. Thank you. Thank you very much.
    I want to thank the witnesses. I appreciate you sticking to 
the time limit, but rest assured you will have additional 
opportunity to speak.
    I am going to defer my questions until the end so that I 
can give my colleagues an opportunity to ask their questions. 
We will stick to the 5-minute rule, and then after everybody is 
finished we will do another round where people can continue. So 
let me go to the ranking member, Mr. Smith.
    Mr. Smith. Thank you very much, Madam Chair.
    And, first of all, thank you, Hatice. That was very, very 
powerful. Your written testimony really is a love letter to 
your fiance and I want to thank you for that and for making 
that a part of the record as well. You know, there is a great 
deal of concern that nothing has been done in terms of 
prosecutions. We know that Prince Mohammad bin Salman, in 
November 2018 there was a Washington Post article that made 
very clear that the CIA had high confidence that he was at the 
core of this terrible, terrible murder.
    My hope, and I said it in my opening, would be that there 
would be, minimally, sanctions meted out against those who were 
part of this and we have very significant sanctions under the 
Magnitsky Act, the inability to do any business here in the 
United States pursuant to the clauses of that law as well as no 
visa. And I think there is a time now to draw a bright line in 
the sand and mete out that kind of punishment.
    In terms of prosecutions, obviously it would be much harder 
for the United States to initiate a prosecution when somebody 
is overseas, but you know, there is a concern that there will 
never be a prosecution, so I do think we need to do what we can 
do right now and to do it. The information seems pretty clear. 
Mr. Simon points out there needs to be a non-secret, not a top 
secret, something that could be disseminated widely from the 
government, from our intelligence services that would lay out 
the case to the greatest extent possible.
    I think it is--I mean obviously the Washington Post article 
is based on leaks, probably, or somebody talking, you know, 
without attribution. But high confidence is high confidence, so 
I think we need to pursue this more aggressively. So I thank 
you again for being here, for bringing this to light so 
eloquently and I do want to thank you for that.
    I would also, Ms. Hoja, thank you for speaking out on 
behalf of all of the journalists in China. And, frankly, we 
know of, as Mr. Simon said, so many of them are Muslim Uyghurs 
that had been incarcerated, but I am of the belief that there 
are many, many more who are incarcerated or otherwise harassed 
that we simply do not know about. And like I said before, the 
chilling effect this has on unfettered reporting is abominable. 
There is just no way that anything is happening inside of China 
that is being reported on and that includes on the internet.
    So I do thank you for that, for being here, for raising the 
issue again. I would point out that in the Reporters Without 
Borders data and you look at the countries that we are talking 
about, Vietnam is listed as 176 out of 180. Three times, three 
separate congresses, I have had the Vietnam Human Rights Act 
pass this House with a heavy emphasis on press censorship and 
what they are doing to bloggers, only to die in the Senate. 
John Kerry had holds on it in the Senate, and I think, you 
know, it was unfortunate. We are going to try to pass it again 
this year. Zoe Lofgren has joined me as the prime democratic 
co-sponsor.
    But things are going from bad to worse in Vietnam. I am not 
sure of anybody I have read--Mr. Simon, I did not see it in 
your testimony, but I am sure you are very concerned about it. 
Since 2011, more than 
2,000 journalists and bloggers have been detained. And there is 
now a new law, a new cybersecurity law in Vietnam where Google 
and Facebook are blocking posts by Vietnamese in the United 
States. So, I mean the reach, as we see with the Uyghurs, as we 
have seen with many dictatorial countries, they are able to 
block that kind of, you know, they set up a firewall. I would 
ask you to speak to that if you could.
    And we also know that a blogger, Truong Duy Nhat, who 
worked for Radio Free Asia, was abducted from Thailand by the 
Vietnamese agents and he is seeking asylum. So there is just, 
again if you could speak to that I would appreciate it. But I 
know I have asked a few questions and there is not much time, 
but perhaps you could respond.
    Ms. Bass. And you respond to that and then the time will be 
out, but we will come back to Mr. Smith in a bit.
    Mr. Smith. OK.
    Mr. Simon. Yes. Well, first of all, I want to agree with 
Congressman Smith. We really do not know how many journalists 
are in prison in China and we do not know how many Uyghur 
journalists are in prison. We do the best research we possibly 
can to come up with an accurate number, but we acknowledge that 
it is becoming more and more difficult to do routine reporting 
in China and it is almost impossible as we heard from Ms. Hoja 
to report in the Xinjiang region.
    International journalists as well are followed, harassed. 
What we know about what is happening, one of the gravest human 
rights situations confronting the world right now, is extremely 
limited. I also think that you raise some important points. You 
gave the example of Vietnam, but we really need to think about 
the internet as a shared global system. That is under threat. 
It is under threat by autocratic countries that are putting 
pressure on U.S. social media companies. It is under threat 
from a new framework through which we look at social media 
companies and the role that they play in this global 
information system. And Vietnam as you mentioned is a country 
of grave concern. You mentioned the RFA correspondent who was 
basically as best we can determine kidnapped from Thailand, 
taken to Vietnam where he remains in prison. And this is 
indicative of the broader, repressive environment that 
journalists in that country confront. Thank you.
    Ms. Bass. Thank you very much.
    We are joined by the chair of the Foreign Affairs Committee 
who would like to make a statement.
    Mr. Engel. Thank you, Chairwoman Bass, and I appreciate 
your indulgence. I have just a short statement to make. I am 
glad that this subcommittee is holding such an important 
hearing. And to our witnesses and members of the public and the 
press, thank you for being here today.
    I will start. I will be brief and start with two short 
words and that is ``fake news.'' We have all heard it and how 
does it make you feel? How are your lives and your safety 
protected when the President calls what you do phony and paints 
members of the press as a menace and brands you as enemies of 
the people? As chairman of this committee, I feel very strongly 
that politics should stop at the water's edge. We run this 
committee in a bipartisan, collegial manner, but I cannot sit 
here and discuss the dangers faced by journalists without 
mentioning what all of you have to put up with. The United 
States often sets the tone of the rest of the world and, plain 
and simple, when the President calls the press phony and tries 
to turn people against them, it is really just not helpful at 
all. I think it erodes American moral leadership on this 
critical issue attacking a founding principle of our great 
nation and we need to do better for ourselves and for the 
international community.
    America's role in the world cannot just be about advancing 
our strategic and material interests. It is essential that our 
values lie at the core of our foreign policy, that they 
underpin everything we do overseas, democracy, human rights, 
the rule of law, the things that make governments more 
transparent and responsive, that makes societies more inclusive 
and prosperous, that builds stronger friends and partners for 
our own country, and there is nothing that shines a light on 
corruption and impunity better than the free press. There is 
nothing that reveals the plight of oppressed and marginalized 
populations better than a free press.
    A free press has on its side the greatest tool to drive 
progress and change and help advance those values, and that 
tool is the truth. That is why journalism can be such dangerous 
work. When journalists seek and tell the truth, they become the 
targets of those who reject these values. That is true of Mr. 
Khashoggi. In far too many places around the world, journalists 
are harassed, detained, jailed, and killed for doing their 
jobs. Those of you here today know this all too well, so thank 
you to all our witnesses for the bravery you demonstrate every 
day and by coming to testify today.
    I also want to take a moment and convey my deepest 
sympathies to you, Ms. Cengiz. Thank you for your strength in 
coming to speak to us today. Your story must be heard and we 
will help you in making sure that it is heard. There needs to 
be accountability for your fiance Jamal Khashoggi's murder. His 
loved ones deserve justice and we lawmakers have an obligation 
to push for that justice. And, frankly, I am worried. I wish 
that the people responsible had learned more from the 
international outcry over his murder, but instead it does not 
seem like people have learned anything. Journalists and 
bloggers remain languishing in prison.
    In March, PBS reported that Saudi dissidents in the United 
States remain at risk. Just this week we have learned that the 
Norwegian security services have contacted a political asylee 
in Norway about a possible threat against him from Saudi 
Arabia. And, frankly, we are seeing efforts to restrict a free 
press all over the globe. It is happening in the Philippines, 
in Venezuela, in Hungary. President Trump just recently met 
with the Hungarian President Orban who is a very serious abuser 
of press freedoms. So what does that mean for us? It means that 
Congress is not finished. The longer we go without seeing real 
accountability and real change, the tougher the path forward 
will be.
    So let me make it clear right here and now. We will not 
rest until there is true accountability. Congress is not done 
on this issue and we will continue to fight to protect the free 
press. I thank you all for being here today. I thank Chairwoman 
Bass and the other members of the committee for their 
indulgence and I yield back.
    Ms. Wild [presiding]. The chair recognizes Mr. Wright.
    Mr. Wright. Thank you. Thank you for having this hearing 
and it is certainly important because once again it reminds us 
that so many of the freedoms that we enjoy here in the United 
States and protected by our First Amendment to the Constitution 
are not enjoyed universally.
    You know, I grew up, not that I am old, but I grew up with 
a black and white TV and Radio Free Europe. And my 
grandchildren, and the eldest will graduate from high school 
next year, they have never known a time when there was not an 
internet and cell phones. And their assumption until they are 
told differently, until they learn, is that the whole world is 
that way, and it is not.
    My question for Mr. Simon and Ms. Repucci has to do with 
China, and it is very aggressively pushing its 5G network and 
it is building broadband in developing countries. And knowing 
how repressive the Communist Chinese are in their own country, 
does that not send a chilling effect to not just journalists, 
but everybody that likes the free flow of information? When 
they are building broadband in these countries and will not--
you know, I mean if you control the information you control the 
country.
    And so my question is, does that not bother you and what 
can the United States and its allies do to confront that 
threat?
    Ms. Repucci. Thank you very much for the question. It is 
very important. Yes, I mean as you know, the Belt and Road 
Initiative is reaching, it is a trillion-dollar project all 
over the world and China is using that to build infrastructure 
that can then be manipulated for surveillance both domestically 
and by China itself, so it is definitely a big concern. China 
is also bringing foreign government representatives to China to 
train them in information technology. And while we do not know 
exactly what happens at these trainings, the case of Vietnam is 
a good example. Very soon after Vietnamese Government 
representatives were in China for one of these trainings, they 
returned to Vietnam and passed a cybersecurity law that was 
eerily similar to the cybersecurity law in China.
    So it does appear that China is trying to--is 
systematically spreading its version of digital 
authoritarianism to other countries through infrastructure and 
through person-to-person contacts. Certainly, the United States 
needs to take action on this. I think maximizing transparency 
as much as possible, information flows on what China is doing, 
making people aware of what we know about the impacts of these 
infrastructure projects and these technology projects. I think 
also it is important to speak out and to support the countries 
that are the targets of this.
    In many ways, these countries are facing a choice between 
moving toward democracy or moving more toward China's model. 
And they need to know that if they want to move toward 
democracy, they have supporters in the United States who will 
back them up and continue to provide a model that they can 
follow.
    Mr. Wright. Thank you.
    Mr. Simon, do you have comment?
    Mr. Simon. Thank you and I will add just very briefly by 
talking about the impact that this smothering surveillance has 
on the ability of journalists in China to do their job. I 
mentioned the challenges that journalists face of reporting in 
Xinjiang, but this, you know, a surveillance State is being 
created throughout China and the technology is being developed 
and exported. So I think we are seeing a model in which 
technology is used to create a massive system of surveillance 
that undermines and threatens the most fundamental human 
communication and obviously would have a devastating impact on 
the ability of journalists to conduct the kinds of essential 
reporting that they need to do in order to inform people and 
inform the public.
    Mr. Wright. Thank you.
    Ms. Wild. Thank you. I now yield time to myself.
    Ms. Cengiz, I hope that what you hear today does not sound 
like empty words. I feel as though so many people have let you 
down and let Jamal down. And I want you to know that what we 
are saying today is spoken from a place deep within us and that 
we care deeply. Your fiance ofJamal dedicated himself to the 
fundamental tenets of a free press, the notion that the pursuit 
of truth is an obligation owed to the public. And I feel as 
though we have let you down, let Jamal down, and in so doing 
have let down people all over the world who seek to be free.
    I want to express what I believe our country has struggled 
to unequivocally express. My sincerest sympathies for your loss 
and my abiding commitment to speak the truth of the 
circumstances surrounding his death so that others will not 
suffer a similar fate. My mother was a journalist, although she 
was never put in harm's way as Jamal was, and I will commit in 
her honor and in your fiance's honor to never stop shedding 
light on this. It is important for us to discover the truth. It 
is our job to protect democracy here and to promote it abroad. 
An informed public and an accountable government are only 
possible with the help of a independent and free press.
    For that reason, I have introduced, here, a free press 
resolution, House Resolution 325, which currently has 52 co-
sponsors, to hold this administration and all future 
administrations to live up to the principles set by our 
Founding Fathers who recognized that freedom of the press is 
one of the greatest bulwarks of liberty. When we do not protect 
our brave journalists, such as Mr. Khashoggi, we move closer to 
tyranny.
    I would like to also thank you, Ms. Hoja. I recently was 
visited in my district by a family who are Uyghur. And the 
wife's family members, multiple family members including her 
father and mother, are currently being held in, I guess they 
are called reeducation camps, what I think of as detention 
camps. And she and her family, her brothers, have not heard 
anything from her mother or father in more than 90 days. And 
she showed me pictures of them at their most healthy, enjoying 
their grandchildren, and then she showed me the last known 
photograph of her mother who was very thin and ill. So I 
commend you for the work that you are doing and the sacrifices 
that you are making and the risks that you are taking both for 
you and for your family.
    And so I just want to ask you this. Do you believe that the 
content that you produce reaches Chinese listeners at all, and 
do they experience risk just by virtue of listening or reading 
the materials you produce?
    Ms. Hoja. Of course, this part, the source and the 
listeners' safety is the most we extremely worry about. Because 
we can, knowing of our families' numbers, telephone number, the 
ID, their pictures, everything, but we do not know our 
listeners' information about even after listen to us what is 
going to be happening to them it is unknown. But we have been 
published several cases, their charge was seven to 10 years 
even because they find out they been listening to RFA.
    So it is a severe cost to even you download Western medias 
or you listen or even the pictures you can just end up in a 
concentration camp right now. So we have several cases have 
been published, but we believe the information itself even 
though Chinese Government using very harsh technology to black 
out, but still people using some kind of technology to listen 
to us, even as some people, travelers, to give them some 
information. Either aboard other Uyghurs bring those 
information we provide and they bring those information to 
them. That is why we constantly even today can get very, very 
valuable information from the Uyghur Region and the Uyghur 
listeners. That is why we continue working.
    Ms. Wild. Well, I am glad that you do and I am glad that 
there is still the will of people to know the truth even in the 
face of great adversity.
    With that I yield to Mr. Phillips.
    Mr. Phillips. And I thank you, Madam Chair, and thanks to 
each of you. The importance of the work that you do, the 
courage with which you do it is admirable, integral, and should 
be celebrated by this entire world. I am grateful to you all, 
particularly you, Ms. Cengiz. Your testimony has moved me, and 
may your beloved Jamal's memory be for a blessing and may one 
of those blessings be action on the part of this body to ensure 
that such tragedies never happen again.
    As I was preparing for this hearing, I was reminded of the 
words of our third President, Thomas Jefferson, who remarked in 
1787 that he would prefer to have a free press without 
government than a government without free press. Poignant words 
230-some years later. And I will add to that. If journalists 
are at risk, then democracy itself is in peril. And I believe 
this very hearing may be one of the most important ones that we 
have all year long.
    And my question to each of you is very simple one and that 
is, what action would you like to see this Congress take to 
take steps to protect journalists all around the world to 
ensure that democracy cannot just survive, but thrive?
    Mr. Simon.
    Mr. Simon. Let me mention one thing that is general and 
something else that is every specific. Generally, I think that 
the Congress needs to ensure that the State Department and the 
executive branch perform its essential role of upholding press 
freedom, ensuring that journalists who are unjustly imprisoned 
around the world governments that engage in that behavior face 
maximum pressure. Governments that fail to investigate the 
murder of journalists face pressure. Governments that impose 
censorship that restrict the work of the media face pressure. 
That is absolutely vital.
    It is also--we also need to recognize that authoritarian 
governments, authoritarian leaders around the world will use 
whatever pretext is provided to them to justify their 
repressive action. They are repressive because they believe 
that by controlling information, they can retain power. 
However, it is deeply unfortunate to see repressive governments 
around the world justifying their action by citing a need to 
curtail and suppress fake news, to adopt the rhetoric of the 
President of the United States to justify their action. That is 
deeply troubling and I think it is important that this body 
speak out about that.
    Last, I want to mention because we heard from Ms. Cengiz 
who spoke about her husband, her fiance, rather, in a very 
personal way, and I want to articulate what his murder means 
for the cause of press freedom. The way in which he was 
murdered, the brutality of the crime, the fact that it was 
exercised extraterritorially, the fact that it was planned and 
coordinated by a government, the fact that it was functionally 
a form of torture, the fact that the people who are alleged to 
have carried out this crime have not been held accountable, and 
the fact that the U.S. Government has been unable or unwilling 
to apply pressure to ensure justice sends a terrible message to 
tyrants and dictators and enemies of press freedom all around 
the world that they can engage in this behavior. That they can 
murder journalists. That they can censor the media and that 
they will not face consequences. That is a terrible message, a 
demoralizing message, a message which I believe cannot be 
allowed to stand. Thank you.
    Mr. Phillips. Thank you, sir.
    Ms. Repucci.
    Ms. Repucci. Thank you. I will just reiterate how important 
it is that the United States stand up for the values of free 
press here at home and that those values serve as a model 
around the world. We have a disproportionate influence in the 
world, people continue to look to us despite our faults and 
mistakes, and we need to uphold that model here. The rhetoric 
that might be aimed at a domestic audience has an 
international, have international reverberations.
    The rhetoric of fake news we have seen since President 
Trump first raised that term in 2016, we have seen more than 20 
countries either pass or propose laws that are on the surface 
fighting misinformation, but are actually using that as an 
excuse to crack down on critical voices at home. It is 
incredibly important that we uphold our own values here and we 
speak out when those values are violated in other countries. 
Thank you.
    Mr. Phillips. Thank you. I am out of time, but I want to 
express again my heartfelt gratitude to each of you. You have 
made an impact on me and I think this entire Congress, so thank 
you.
    Ms. Bass. Ms. Omar.
    Ms. Omar. Thank you, Chair Bass.
    Mr. Simon, you painted a bleak picture of the threats faced 
by journalists worldwide. We often think about governments that 
threaten journalists as military dictators. In places like 
Egypt, Turkey or Saudi Arabia, Honduras that is kind of 
expected. But I worry a lot about what is happening here and 
the kind of message that our President is sending when he calls 
the press the enemy of the people or calls any story that 
paints him in a bad light as fake news, what effects that must 
have.
    And I should say that we do not have to look too farther 
from our own country. We have seen bombs being sent to 
reporters in CNN in October. Last June, Gerald Fishman, Rob 
Hiaasen, John McNamara, Rebecca Smith, and Wendi Winters were 
murdered at the offices of Capital Gazette, and as members of 
the House of Representatives assaulted doing a campaign.
    But talking back to the question of threats against 
journalists worldwide, when President el-Sisi of Egypt was 
here, for example, I spoke at a briefing where I mentioned the 
19 journalists that have been arrested in Egypt under the 
charges of fake news; I will guess that the President Trump 
when he hosted him did not bring that up. Do you think other 
governments see the President's treatment as a green light in 
other countries?
    And then just a second question to that, we have also heard 
reports of the U.S. Government committing surveillance against 
journalists and other human rights workers at the southern 
border. I signed on a letter that was authored by my colleague, 
Mr. Castro, regarding this problem, but I want to ask you, how 
does this hurt the U.S.'s credibility on press freedom and is 
it not only tweets by the President Trump that is causing more 
alarming action from all of us?
    Mr. Simon. OK. Well, that is a lot to cover. I think I 
spoke about the way in which the President talks about the role 
of journalists in this country, which as I think Ms. Repucci 
correctly indicated is aimed at a domestic audience, empowers 
autocratic leaders and undermines U.S. influence when the 
government tries to exert it on behalf of journalists and press 
freedom. So it is of deep concern. Obviously, it is not a press 
freedom issue, per se, the President is free to express his 
views in whichever way he chooses to express them. There is a 
risk as you indicated that some people may take this language 
literally, and there is some evidence that people have done 
that and that is as you indicate alarming as well.
    I think you have identified one very critical press freedom 
issue and that is the way in which journalists who are crossing 
the border into the United States have been subjected to 
searches that we believe are overly broad and inhibit their 
ability to carry out their work outside the country. Securing, 
the ability of journalists to secure their data is critical to 
their work and we have raised concerns and we have engaged with 
DHS on that issue and we have not got satisfactory response in 
our view.
    I also want to note a second concern that is a broader 
legal concern and that is about the aggressive prosecution of 
journalists' sources. This was a trend which actually began in 
the Obama Administration which prosecuted eight journalists' 
sources under the Espionage Act, which is an overly broad, in 
our view, instrument for this purpose and has a chilling effect 
on the media. But we have seen a number of cases in the Trump 
administration, so this is a long-term trend. It is a legal 
threat to press freedom and it concerns us greatly. Thank you.
    Ms. Omar. Thank you. If I can take just 1 second. I wanted 
to say to Ms. Cengiz, thank you so much for the courage you are 
showing. There is not really anything any of us could say to 
ease the pain that you must have endured the last 7 months.
    I had the privilege of attending an Iftar with Jamal last 
year. And as you were speaking about the loving relationship 
you shared, I remember he had said to me--he took a famous 
picture of Keith Ellison and I, and he said, ``Ilhan, you need 
to run for Congress.'' And I said, ``I cannot run for Congress 
because the person, the only seat I can run for is occupied by 
Keith Ellison.'' And we laughed about that and I did not really 
know that that would be the last time that I would see him.
    But he was always courageous in the work that he did and 
you are showing courage, and I hope that we get to follow that 
in being courageous and making sure that justice is served in 
his death.
    Ms. Bass. Thank you for sharing that, Rep. Omar.
    Rep. Houlahan.
    Ms. Houlahan. Thank you, Madam Chair.
    And I also want to say thank you so much to you all for 
coming and for sharing your lives and your stories with us so 
that we can hopefully be helpful and do something about it. I 
am deeply grateful for your stories.
    I also have a story as well that I would like to share with 
the record and with the Congress as well. In my home State of 
Pennsylvania, we suffered recently a loss as well of a 
journalist as well. His passion was particular to South Sudan 
and he was shot and killed by South Sudanese Government forces 
2 years ago. And so if it is OK, I would like to enter this 
very recent article about him for the record.
    Ms. Bass. Without objection.
    [The information referred to follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Houlahan. Because I know that his family is grieving as 
well and we grieve for him and his family in the same way that 
we grieve for you.
    And so, I guess what I would like to ask, because it sounds 
as though many of my colleagues have asked questions about what 
can we do against government to make sure that we are helpful 
as a Congress, my first question is to Mr. Simon. In your 
estimation, how much of the violence against journalists is 
government-directed or attributed, and how much is perpetuated, 
do you think, by criminal or terrorist organizations or other 
nongovernmental organizations to the degree that you have data 
or information about that?
    Mr. Simon. Well, the data base that we have that would be 
most relevant would be the number of journalists killed and the 
perpetrators of that violence, because obviously repressive 
action, journalists imprisoned, that is all perpetrated by 
governments. I would like to get back to you on the specific 
numbers rather than citing them off the top of my head, but I 
will say and I can affirm that the threat from non-State actors 
is rising and has been rising for a number of years.
    So these would include criminal organizations like Mexican 
drug cartels, like other criminal organizations, for example, 
in Central America and Brazil journalists are threatened by 
criminal organization. Also, radical Islamist groups in places 
like Syria, in Iraq. And, you know, the way, the engagement 
that you have to have in order to defend journalists working in 
those kinds of high-risks environment is different since 
advocacy with those groups is generally not going to be 
effective.
    Ms. Houlahan. Is there anything that you can think of from 
a United States standpoint, from a congressional standpoint 
that we can do to sort of tease those things apart and to be 
helpful in the cases where it is not necessarily directly 
attributable to a State?
    Mr. Simon. Yes. I mean one thing that I talked about in my 
remarks is hostage policy. That is one dynamic that is part of 
the threat from non-State actors is they have and they continue 
to take journalists hostage. And I think we need a more 
flexible and dynamic approach to that issue as government. I 
think we have a kind of rigid framework in which we operate and 
that does not always lead to the best outcomes. And I think 
that the U.S. Government can and has supported initiatives to 
ensure that journalists have access to safety information and 
the support that they need to do their jobs safely in those 
kinds of environments and that is absolutely an action that the 
U.S. Government can take.
    Ms. Houlahan. Thank you. And with my last little bit of 
question I would love to hear about what steps we can take 
specific to female, women journalists and the particularly 
different issues that face them, if any, that you guys can give 
us as advice to be helpful, to anybody who can answer that 
question.
    Mr. Simon. I am sorry. I was actually looking at a note 
with data on that my colleague passed to me on the number of 
journalists killed since 1992. 213 of those crimes were 
attributed to government, 139 to criminal groups, 253 to 
military officials which are functionally governments, and then 
453 to political groups. So that is a pretty good breakdown of 
the data.
    Ms. Houlahan. Thank you.
    And with the last few seconds of my time, I also have a 
story also from a member of my community, Coatesville, 
Pennsylvania, a Mr. Rachadi Abdallah who was a resident and now 
is an American citizen of Comoros. And he has been recently 
engaged in his version of fighting back against a non-democracy 
in his former nation and was recently imprisoned as well as 
journalists in his community have been imprisoned too. And this 
was his testimony when he came to visit me, so this is also for 
the record as well.
    Thank you very much for the work that you are doing. It 
could not be more important. It is one of the reasons why I ran 
for Congress, turns out the truth that matters, so thank you.
    Ms. Bass. Thank you very much.
    A couple of quick questions, Ms. Hoja, I know that you have 
several members of your family, what it says here is at least 
two dozen that are missing. And I was wondering, do you have 
any information about them? What is being done?
    Ms. Hoja. We have heard about instance of this happening, 
but we have not been able to verify. So it is very unclear 
because we cannot directly contact with them. We just hear 
rumors or hear some about our, for--yes, relatives. So, I can 
contact with my parents. After I give testimony last year, they 
open up, the Chinese Government, the phone line. I do not know 
why, but they did, so I can contact with my parents.
    But other relatives as my cousins and my brothers, we are 
not sure about them, are they alive or not. So I would love to 
ask the U.S. embassy in Beijing, can ask about the whereabouts 
and the well-being of me and my colleagues' family members. 
Also----
    Ms. Bass. Excuse me. You are asking us if we can ask; is 
that what you were saying?
    Ms. Hoja. Yes.
    Ms. Bass. And you have the list of names?
    Ms. Hoja. Yes, we have--we already gave the full of the 
list of our families to State Department, also in the Congress.
    Ms. Bass. OK.
    Ms. Hoja. Yes. So all around, like me and my other five 
colleagues, like about 50-something people in the camps, you 
know.
    Ms. Bass. Geez. OK, thank you.
    Ms. Cengiz, I was wondering if you could--and I think you 
referenced this before, but I would like for you to restate it. 
What would you like to see the U.S. Government do?
    Ms. Cengiz. As I have mentioned this to an extent, this 
act, this murder was a great brutality and the last seven, 8 
months nothing was done. The legal procedures and the legal 
procedures that Saudi Arabia undertook is not transparent. We 
still do not know why he was killed. We do not know where his 
corpse is. Congress, if it undertakes an international 
investigation and puts pressure on Saudi Arabia to share the 
information with the public and the United States that could be 
one thing.
    There should also be sanctions on Saudi Arabia, because the 
reason Jamal moved to United States was because there were 
other people like him in prisons in Saudi Arabia who could not 
voice their own opinions and he felt responsible for them. And 
he said, ``In the United States, I can be their voice.'' If we 
cannot bring him back, maybe at least we can help those people 
and other prisoners of thought.
    Ms. Bass. Thank you very much.
    Mr. Smith.
    Mr. Smith. Thank you very much, Madam Chair. I think the 
record should know and reflect that the Saudi Arabians have 
been very, very unforthcoming when it comes to information, 
even those who conspired in 9/11. We had a major battle in 
Congress, it was bipartisan, and the legislation, sadly, was 
vetoed by President Obama.
    But in his only act that was overturned by a veto override, 
the legislation to really try to get to the Saudi individuals 
who were part of 9/11, the security agents, so that the courts 
could pursue it without the redactions that would occur because 
of national security so that could go forward, and that did 
pass the House. Chuck Schumer joined in with the Republicans. 
It was a total bipartisan effort. Again, it was the only piece 
of legislation to the best of my knowledge that Barack Obama 
vetoed and then had it overridden by the House and the Senate, 
underscoring the incredible arrogance on the part of Saudi 
Arabia not to be forthcoming about information. I find it 
appalling. I think we all must find it appalling.
    You know, I would ask unanimous consent, Madam Chair, that 
the Washington Post article, ``CIA concludes Saudi Crown Prince 
ordered Jamal Khashoggi's assassination,'' datelined November 
16, 2018, written by Shane Harris, Greg Miller, and Josh 
Dawsey, be made a part of the record. Hopefully, without 
objection, it will be made a part of the record.
    Ms. Bass. Without objection.
    [The information referred to follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Smith. I appreciate that, Madam Chair, because it makes 
very clearly that the CIA as I said before had high confidence 
that they, indeed, it went right to the very top. And so again, 
we need to be very clear and that is why I think, minimally, 
the Magnitsky sanctions ought to be imposed upon the very top, 
including the Prince.
    Second, if I could, you know, I had a bill that I tried for 
years to get passed called the ``Ethiopia Human Rights Act.'' 
The Bush Administration opposed it. The Obama Administration 
opposed it. My good friend and colleague who was then the 
ranking member, then he became chairman--it went back and forth 
a few times--Donald Payne, we were in lockstep in trying to get 
this legislation passed with a very, very serious emphasis on 
the lack of press freedom in Ethiopia as well as individuals 
who were being incarcerated for their journalistic writings.
    Last Congress, I authored a bill that laid out a number of 
important benchmarks that we hoped that the new government 
would follow, prominent among which was press freedom. And when 
my good friend and colleague, Ms. Bass, and I traveled to 
Ethiopia and met with the new leader of Ethiopia, Abiy, we were 
very encouraged by his release of political prisoners, his 
sense that press freedom was sacrosanct.
    But I have to tell you, I sat here and had in both parties, 
Democratic and Republican White Houses, State Departments, tell 
me that ``No, this bill will do more harm than good, let's not 
do this.'' Then after we get a change of regime and get a true 
democrat, small d, into the position of power in Addis Ababa 
and is doing all these great things, everybody is on board 
like, ``Yes, we always knew they were a problem.'' So I get 
very cynical sometimes, you know, with the way State 
Departments in all administrations handle things.
    And, Mr. Simon, I want to thank you for your comment a 
moment ago, talking about the long-term trend that you 
mentioned. And I would ask again that with unanimous consent 
that an opinion in the Washington Post by Eric Wemple be made a 
part of the record.
    Ms. Bass. Without objection.
    [The information referred to follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Smith. He does make the point that the criminal 
investigations had its roots in George Bush's administration. 
But then he says the Obama Administration's aggressiveness on 
this front mushroomed into a scandal in the spring of 2013 as 
revelations surfaced that the Justice Department had subpoenaed 
2 months' worth of records of Associated Press journalists. And 
he goes on and talks about a whole lot of other examples. But 
it certainly had a chilling effect on the press during those 8 
years, and we do not want to have any more of that, frankly.
    You know, I was part of a group that went to the Soviet 
Union under the auspices of the Commission on Security and 
Cooperation in Europe, which I have chaired or co-chaired or 
been ranking member for years. It was before the first election 
of the Duma, so it was during the beginnings of Glasnost and 
Perestroika in Russia, the Soviet Union. We had 3 days of 
roundtable discussions with existing members of the Duma, all 
of them unelected, facing their first elections if they were 
going to run again.
    It went into a whole big conversation about press freedom 
and they asked us what do we do when we are attacked by the 
press. And since I sometimes get that a lot, I pointed out that 
we write op-eds, we contact the journalist involved and try to 
set the record straight, and we talk to their editors and try 
to--and maybe even have a letter to the editor to, by someone 
on your staff or a friend to try to make the point that they 
got it wrong. But that is it. The idea of bringing a defamation 
suit when you are a public person is nil and none and almost 
never is successful. But is one of the prices we pay in 
democracies, I think, for having a free and unfettered press. 
They can get it wrong sometimes and grossly wrong.
    I do wish that there was more of an emphasis on responsible 
journalism by some. I remember in the journalism class I took 
in college, the first thing I learned was: What are the three 
As of journalism? Accuracy, accuracy, accuracy. And I wish we 
would get back to some of that. But I raise that because, you 
know, unfortunately, under Putin we have gone back in Russia to 
the bad old days of a lack of journalistic freedom. So I again 
want to thank you for pointing that out. The last 
administration made serious, serious mistakes when it comes to 
press freedom and we do not want to see that replicated through 
the current one. And we certainly do not want Jamal Khashoggi's 
case to go the way of those who were complicit in the Soviet 
Government with 9/11, which continues to this day to be, still, 
not resolved.
    Let me ask just one final question, if I could. There are a 
number of countries in Africa--we are the Africa, Global 
Health, Global Human Rights Committee--that are on the list, 
your list. They are also on Reporters Without Borders. And I 
wonder if you could just speak to some of those countries like 
Eritrea, Djibouti, Somalia, Sudan, all of which, you know, just 
to speak to what we could be doing. You know, you mentioned, I 
thought it was a good point that we be in your recommendations 
that visas and asylum be available to journalists escaping.
    My question, is that happening or not? Are they getting it 
when they try to--fear, you know, escape? And, second, is the 
Country Reports on Human Rights Practices, which you also 
recommend, Mr. Simon, is that also, is the report robust enough 
in your opinion on focusing on journalists? Thank you.
    Mr. Simon. So the answer to the press freedom element in 
the State Department Human Rights Report under the Daniel Pearl 
Press Freedom Act--the State Department is required to have 
robust reporting on press freedom issues--I would say that that 
is not happening. I would like to see that strengthened, 
absolutely, and that is why it is a recommendation. I believe 
that those reports, they can seem bureaucratic, but they send 
an important message about U.S. values and they are received 
with a great deal of attention in the countries whose practices 
are documented.
    So absolutely, I would like to see that strengthened. 
Visas, we deal with that, that is in a very practical way. And 
I think it was more than about the fate of specific individual 
journalists who were threatened that the U.S. was perceived as 
a haven for those persecuted journalists around the world who 
needed to find refuge. That is no longer the case. It is simply 
too difficult even for our organization when we look to 
evacuate journalists who are facing imminent threat of death. 
We often look to other places because we simply----
    Mr. Smith. Is that new or is that a continuation?
    Mr. Simon. It was always a challenge, but it has gotten a 
lot worse. It absolutely has gotten a lot worse. It troubles 
me.
    Mr. Smith. Thank you for that. We will make inquiries on 
that.
    Mr. Simon. Yes. And I think that lives are at stake.
    You asked the question about Africa and I am afraid I 
cannot answer that in 30 seconds. But I will say that Africa in 
some ways defies expectations. There are huge challenges to 
journalists in Africa, but there are some tremendous success 
stories you mentioned.
    Mr. Smith. Yes.
    Mr. Simon. Ethiopia, as an example, and, you know, I think 
when people think of Africa and press freedom they think that, 
you know, there are many journalists imprisoned and high 
numbers of journalists killed. But, actually, Africa is a part 
of the world where as I said there are huge challenges, but 
they are not reflected in that data. So if you want to find 
some good news in Africa you can about press freedom.
    Mr. Smith. One last question, if I could, Madam Chair?
    Ms. Bass. Go ahead.
    Mr. Smith. Ms. Hoja, you made an interesting and very 
important point that not only did they mistreat journalists, 
including people like yourself who are not even in-country, but 
they also go after the families. And I wonder if that is a 
trend that we are seeing elsewhere, because that is especially 
what dictatorships do. But you also say, ``Also not spared are 
our sources.'' And I am wondering, do they track them down too, 
you know, because they do have surveillance capabilities that 
are second to none in China. Do they track down the people that 
are the source in the gist of your articles?
    Ms. Hoja. Yes, it has been. We have several cases we can 
talk more about with the staff later. But recently after the 
camps started, even the one of the survivors, Omir Bekali, even 
he was in Kazakhstan, he was tracked down in Kazakhstan-
threatened by Chinese officials by phone, also threatening by 
Kazakh officials in Kazakhstan. That is why he leave his family 
to the Turkey. So he just, after he spoke about the experience 
in the camps to the Western media, his father and the whole 
family wound up in the camp. His father passed away in the 
camp. And then other sources, we cannot just openly to give the 
information about them, so I would like to----
    Mr. Smith. But is a problem, as there is a problem?
    Ms. Hoja. Yes, it is.
    Mr. Smith. Do you find that too as well that sources become 
targeted just like the journalists themselves?
    Mr. Simon. Absolutely. Absolutely. And I think, you know, 
one of the things I mentioned in my opening remarks is the 
software developed by the Pegasus Group that was used to track 
Jamal Khashoggi's contacts, that is another example. So there 
is surveillance. There is State-level surveillance, but there 
is also a privately available surveillance tool that----
    Mr. Smith. Now you did say in your testimony that it was 
likely. How confident are you that it was Pegasus? Because you 
got it from another NGO, correct?
    Mr. Simon. Yes. I mean I think there is a high degree of 
likelihood and that is what our researcher was able to 
determine, so that is what we believe.
    Ms. Bass. OK.
    Mr. Smith. Thank you so very much.
    Ms. Bass. I want to----
    Mr. Smith. Can I just make a--the ranking member of the 
full committee, and I would ask unanimous consent that Michael 
McCaul's statement be made a part of the record?
    Ms. Bass. I am sorry?
    Mr. Smith. Michael McCaul's statement be made a part of the 
record?
    Ms. Bass. Oh, sure. Of course, without objection.
    [The information referred to follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Bass. Let me once again thank you all for being here 
today. I do want to just make a statement just for the record 
in terms of what we are facing here with the current 
administration, in my lifetime, is something that I have never 
seen, a President who has called journalists and the press the 
enemy of the people, who has called for the media to be 
investigated, who has called for reporters in the media to be 
jailed, who at rallies has intimated, you know, if they were 
attacked, you know, whatever.
    We had the act of domestic terrorism which one of the 
members referenced the bombs that were placed, you know, at 
CNN, and so what we are going through right now in our country 
is something that we have to pay very careful attention to. We 
cannot just ignore it and say this is the antics of this 
President, because we have to be careful that we do not allow 
this administration to change social norms in this country 
where it then becomes acceptable.
    When you have someone who is deranged that walks into a 
newsroom and actually murders people, you have to be very 
careful of the environment that you are setting if you are the 
leader of the country and are spreading vitriol. And I know 
that prior administrations have made mistakes, but again in my 
lifetime we have never seen anything like we are witnessing 
today.
    I want to thank the witnesses for coming. I want to thank 
Mr. Simon and Ms. Repucci for the work that you do on a daily 
basis, holding the line and making sure the journalists are 
protected.
    And, Ms. Hoja, for what you do with Radio Free Asia. And I 
just cannot even imagine what it would feel like to have two 
dozen of my family members missing and not have the ability to 
find them.
    And then to Ms. Cengiz, I just appreciate you opening 
yourself up to speaking publicly about what has happened. I 
think the world was horrified at the open, blatant murder of 
your fiance and the fact that that has gone unanswered in the 
world is a source of shame. I appreciate what you said in terms 
of what you would like to see from our country. You should know 
from myself and from the ranking member, who has put in more 
than three decades working on these issues and fighting for 
human rights, that we will do what we can. There needs to be 
justice for what was done. Thank you very much. And with that 
the meeting is adjourned.
    [Whereupon, at 3:52 p.m., the subcommittee was adjourned.]

                                APPENDIX
                                
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


                                 [all]
</pre></body></html>
